                                               National Archives and Records
                                                              Administration
                                                                                   Office ofInspector General
                                                                                       8601 Adelphi Road
                                                                      College Park, Maryland 20740-6001

Date           August 12,2008

Reply to
Attn of        Office of Inspector General (OIG)

Subject    :   Management Letter 08-12: Update on Conditions of the Museum Collection at the
               Ronald Reagan Presidential Library

To             Allen Weinstein, Archivist ofthe United States

The purpose of this letter is to bring to your attention the significant progress being made by
the Office of Presidential Libraries (NL) and Ronald Reagan Presidential Library in
strengthening their stewardship of presidential artifacts.

The Office ofInspector General (OIG) visited the Ronald Reagan Presidential Library on
July 29 - 31, 2008. As part of this visit we reviewed museum operations to observe what
progress had been made in implementing recommendations made in OIG Audit Report No.
08-01, Audit of the Process for Safeguarding and Accounting for Presidential Library
Artifacts (dated October 26, 2007).

I am pleased to report it appears the Library has made a considerable amount of progress
since the issuance ofOIG Audit Report No. 08-01. Specifically:
    • An inventory plan has been developed, approved and is being implemented
    • Staff have been added, under term appointments, to assist in organizing and
        inventorying the museum collection, and approximately 50% of the records in i/O
        have been reconciled
    • Presidential artifacts in the Reagan's private space have been identified and are now
        accounted for as high value objects
    • The appearance and organization of the collection and controlling documentation has
        seen significant improvement since the time of our audit
    • Interim steps have been taken to secure the artifacts against damage (e.g. shelves have
        been braced, netting has been installed over open shelves). In fact, during our visit
        the library experienced the effects of a mild earthquake without sustaining any visible
        damage to the artifacts
    • Damaged items have been identified and documented by library staff and Nancy
        Davis is consulting with Library staff on preservation/conservation actions




                                    National Archives and Records Administration                            1
These are encouraging improvements. However, some difficult work remains to be done,
including the identification and reconciliation of anomalies identified as a result of
inventorying. Additionally, the library recently obtained a quote of                  dollars for
the installation of rolling shelving, a more permanent solution to securing the collection. NL
faces the challenge of obtaining the funding and installing the shelving prior to 2010, when a
major renovation ofthe public museum space will necessitate the removal and storage of all
artifacts currently on display.

We will continue to monitor progress and provide updates as warranted. If you have any
questions please contact me.



PAUL BRACHFELD
Inspector General

CC:
Sharon Fawcett, Assistant Archivist for Presidential Libraries
Susan Ashtianie, Director, Policy and Planning Staff
Duke Blackwood, Director, Ronald Reagan Presidential Library




                              National Archives and Records Administration                          2
